GR-80-98-020
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING
SERVICES
BATON ROUGE POLICE DEPARTMENT
BATON ROUGE, LOUISIANA
GR-80-98-020
June 18, 1998

 
EXECUTIVE SUMMARY
 The Office of the Inspector General, Audit Division,
has completed an audit of the grants awarded by the U.S. Department of Justice (DOJ),
Office of Community Oriented Policing Services (COPS), to the Baton Rouge, Louisiana,
Police Department. The Police Department received a Making Officer Redeployment Effective
(MORE) '95 grant for $1,197,540 to purchase equipment and to redeploy 60 officers and
a MORE '96 grant for $165,000 to redeploy an additional 13.9 officers under the COPS MORE
program. The purpose of the grants is to enhance community policing efforts.
Equipment and software was purchased with funds from a
MORE '95 grant which expired September 30, 1997, and no further extensions have been
requested or granted. The Police Department had not completed the installation of all the
mobile data equipment, and the automated reporting system was not fully implemented.
Redeployment of the 60 officers had not occurred, and a plan to document the redeployment
had not been developed. Therefore, we are questioning grant funds received totaling
$858,413. Additionally, the Baton Rouge Police Department received $339,127 for costs
incurred in excess of the allowable Federal share. We are recommending that
those funds be returned. Lastly, the MORE '96 grant for $165,000 expired March 31, 1998,
without any requests for reimbursement; therefore, we recommend those funds be
deobligated. 
We found the following weaknesses with regard to meeting
grant conditions:


- The Baton Rouge Police Department received $339,127 in
    excess of the allowable Federal share of the MORE '95 grant. 
- The MORE '95 grant expired and the Police Department had
    not redeployed any officers or developed a plan to document the redeployment. 
- The MORE '96 grant for $165,000 expired without any
    requests for reimbursement. As in the first grant, the Police Department did not have a
    plan to track the redeployment of officers.


#####